Se
I

2311 Douglas Street COCKL E s

Omaha, Nebraska 68102-1214 Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 20-827

UNITED STATES OF AMERICA,
Petitioner,
%
ZAYN al-ABIDIN MUHAMMAD HUSAYN,
aka ABU ZUBAYDAH, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age. being duly sworn, upon my oath state that I did, on the 20th day of August, 2021, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF FOR AMICUS CURIAE ELECTRONIC FRONTIER
FOUNDATION IN SUPPORT OF RESPONDENTS ZAYN AL-ABIDIN MUHAMMAD HUSAYN, AKA ABU
ZUBAYDAH, AND JOSEPH MARGULIES in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

THOMAS E. MOORE III
HAYNES AND BOONE, LLP
525 University Avenue

Suite 400

Palo Alto, CA 94301
Telephone: (650) 687-8800

RICHARD R. WIEBE

Counsel of Record
LAW OFFICE OF

RICHARD R. WIEBE
44 Montgomery Street, Suite 650
San Francisco, CA 94104
Telephone: (415) 433-3200

CINDY A. COHN

DAVID GREENE,

LEE TIEN

KURT OPSAHL,
ANDREW CROCKER
AARON MACKEY
ELECTRONIC FRONTIER

ARAM ANTARAMIAN wiebe@pacbell.net
LAW OFFICE OF FOUNDATION
ARAM ANTARAMIAN 815 Eddy Street

San Francisco, CA 94109

1714 Blake Street
Telephone: (415) 436-9333

Berkeley, CA 94703
Telephone: (510) 841-2369
Counsel for Amicus Curiae
Electronic Frontier Foundation

Subscribed and sworn to before me this 20th day of August, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

, GENERAL NOTARY-State of Nebraska
i

kheoo Ouduaw-h, Ghhe

Notary Public Affiant 41229

RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

 
Attorneys for Petitioner

Brian H. Fletcher
Counsel of Record

Party name: United States

Attorneys for Respondents

David Franklin Klein
Counsel of Record

Acting Solicitor General

United States Department of Justice 950 Pennsylvania
Avenue, NW

Washington, DC 20530-0001 ene oMee2i7

SupremeCtBriefs@USDOJ.gov

Pillsbury Winthrop Shaw Pittman LLP
1200 17th Street NW
Washington, DC 20036 202-663-8000

david.klein@pillsburylaw.com

Party name: Zayn al-Abidin Muhammad Husayn, et al.

Christopher W. Tompkins

Betts, Patterson & Mines, P.S.
701 Pike Street, Suite 1400
Seattle, WA 98101 206-292-9988

ctompkins@bpmlaw.com

Party name: James Elmer Mitchell and John Jessen
